Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG
Home
Audit
Report - A-09-96-64204
Office of
Audit
Monitoring Representative Payee
Performance: The Accounting Form - A-09-96-64204 - 1/6/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
Approximately
86 Percent of Payees Responded to Mailed Accounting Requests
More
Than 35 Percent of Responders Completed Accounting Forms in a
Manner That Produced Exceptions
Payees
Expressed Difficulties in Completing the Accounting Forms
Exception
Rates Vary by Accounting Form
CONCLUSION
APPENDICES
A: Copies of Accounting
Form
B: Detailed Methodology
C: Response Rates, Exception
Rates, Payee Training
D: List of Contributors
EXECUTIVE SUMMARY
PURPOSE
This report identifies the types, frequencies, and
causes of representative payee generated exceptions to the Social
Security Administration`s (SSA) annual accounting forms.
BACKGROUND
The Social Security Administration (SSA) administers
two programs under The Social Security Act--title II (Retirement,
Survivors, and Disability Insurance (RSDI)) and title XVI (Supplemental
Security Income (SSI)). These two programs provide monthly benefit
payments of about $25 billion to approximately 49.2 million beneficiaries
who are aged, disabled, or survivors. If beneficiaries cannot manage
their own finances, Congress has authorized SSA to pay the benefits
to other individuals or organizations on their behalf. The SSA calls
these individuals and organizations representative payees (hereinafter
called payees).
Payees` responsibilities include submitting an
annual accounting form report to SSA. The SSA uses the data collected
from these forms to determine the continuing suitability of payees,
the continuing need for representative payment, and whether payees
used benefits properly during the 12-month report period. The SSA
staff use a computer program to review the accounting forms and decide
whether the responses are acceptable or need further review and/or
explanation. (Responses requiring further review and/or explanation
are referred to as "exceptions.") If all responses on an
accounting form are acceptable, no further action is necessary.
The SSA has undertaken initiatives to strengthen the
entire annual accounting process. To assist in this effort, SSA requested
that the Office of the Inspector General (OIG) conduct a series of
inspections to review and recommend improvements to the annual accounting
process. This report is one in the series of reports that assess
the risk of misuse of benefits associated with various categories
of payees. Other reports will present data concerning demographics
of payees, demographics of beneficiaries, misuse or questionable
use of benefits by payees, poor performance by payees, the effectiveness
and efficiency of the accounting review process, and nonresponding
payees. A roll-up report will provide overall recommendations for
improving the accounting process.
We combined data collection from SSA`s computerized
beneficiary data bases and in-person interviews to determine payees` performance.
In September and October 1994, SSA prepared computerized files of
title II and title XVI beneficiaries with payees scheduled to receive
initial accounting forms in October 1994. From these files, we extracted
a sample of 3,010 payee cases for our study. We used all collected
information (e.g., accounting forms, interviews) to describe:
1. payees` experiences
with the current accounting process; and (2)
2. payees` difficulties
in completing the annual accounting form.
FINDINGS
Approximately 86 Percent of Payees Responded
to Mailed Accounting Requests
While more than 75 percent of payees responded to the
first accounting request and 10 percent responded to the second
accounting request, more than 14 percent of payees had to be contacted
directly regarding completion of the accounting forms.
More Than 35 Percent of Responders Completed
Accounting Forms in a Manner That Produced Exceptions
Common exceptions included:
1. failing to account
for 90 percent of the total accountable amount; (2)
2.              providing relationship
information that did not correspond to SSA`s data bases or
failing to answer the relationship question; (3)
3.              stating that the
beneficiary
had changed custody during the report period; and
4. payees stating
that they did not decide how all benefits were spent or saved.
Payees Expressed Difficulties in Completing the
Accounting Forms
Incorrect responses were often the result of payees` confusion.
This confusion may be the result of payees`:
1. limited understanding
of the accounting process and their responsibilities; (2)
2. difficulty
understanding what specific questions are asking; or (3)
3.              failure
to maintain information necessary to complete the accounting forms.
Exception Rates Vary by Accounting Form
Payees completing the SSA-6230 (parents, stepparents,
and grandparents with custody of title II child beneficiaries) were
less likely to produce exceptions than payees completing the SSA-623.
CONCLUSION
Although the majority of payees respond to mailed accounting
requests, SSA still must contact a large number of payees directly.
Some contacts are to obtain missing or incomplete responses, while
others are to clarify payees responses. Many of the latter contacts
are necessitated by payees` confusion over completing the accounting
forms. The SSA`s efforts to make the SSA-6230 a simpler and more
direct form have proven successful, with payees completing the SSA-6230
generating fewer exceptions than payees completing the SSA-623.
Back to top
INTRODUCTION
PURPOSE
This report identifies the types, frequencies, and
causes of representative payee generated exceptions to the Social
Security Administration`s annual accounting forms.
BACKGROUND
Overview of the Representative Payee Program
The Social Security Administration (SSA) administers
two programs under The Social Security Act--title II (retirement,
survivors, and disability insurance) and title XVI (supplemental
security income). These two programs provide monthly benefit payments
of about $25 billion to approximately 49.2 million beneficiaries
and recipients who are aged, disabled, or survivors.
Approximately 6.6 million beneficiaries, or slightly
more than 13 percent, cannot manage their own finances. If beneficiaries
cannot manage their own finances, Congress has authorized SSA to
pay the benefits to other individuals or organizations on their behalf.
The SSA calls these individuals and organizations representative
payees (hereinafter called payees).
Sections 205(j)(1) and 1631(a)(2) of The Social
Security Act authorize the Commissioner of SSA to appoint payees.
Payees may include, but are not limited to, parents with or without
custody of children, spouses, other relatives, legal guardians,
friends who show strong concern for the beneficiary`s welfare,
and institutions with or without custody of the beneficiary.
Payee Responsibilities
Payees` responsibilities include:
1. frequently
monitoring the beneficiary`s well-being;
2.              notifying
SSA of situations that affect the beneficiary`s entitlement
to or amount of benefits (e.g., work); and (3)
3.              informing SSA of
changes
in the payee`s own circumstances that would affect the payee`s
performance.
A major payee responsibility is to submit an annual
accounting form to SSA describing their use of benefits. Payees
receive the booklet, A Guide For Representative Payees,
during the SSA interview which describes a payee`s responsibilities
and the appropriate use of benefits. The booklet includes a worksheet
to record the use of benefits and a sample accounting form. The Jordan Court and the Establishment of the
Annual Accounting Process
Prior to 1983, SSA did not have a mandate to conduct
accountings of funds that payees received on behalf of beneficiaries.
The Agency relied on its own initiative to create an accounting system.
In 1979, Ms. Jeanne Jordan brought a certified class action suit
against SSA challenging how it monitored payees. (Ms. Jordan alleged
that her payee was not using her SSA benefits properly to meet her
needs.) In its 1983 decision, the Jordan Court decided that
payees should be required to give a full accounting of how they spend
and save title II and title XVI benefits on behalf of beneficiaries.
Subsequently, Congress amended The Social Security Act to
require annual accounting of all payees except State mental institutions
participating in the onsite review program.
The SSA, in consultation with the Jordan court,
designed an annual accounting process--including the look and content
of the accounting form--to gather data from payees. The data helps
SSA determine:
1. the continuing suitability of the payee,
2. the continuing need for representative payment,
and
3. whether the payee used benefits properly during
the 12-month report period.
The Annual Accounting Forms
To handle a high volume of annual accounting, SSA developed
standardized accounting forms--the SSA-623 and the SSA-6230 (Appendix
A contains copies of these forms). The SSA-623 asks how payees used
the funds for:
1. food and shelter; (2)
2. other items such as clothing,
education, personal items, and medical and dental expenses; and
(3)
3. savings.
The form also asks payees about:
1. changes in
the beneficiary`s custody; (2)
2.                whether the payee or another
person controlled the use of the SSA benefits; and (3)
3. their
own felony
convictions during the previous 12 months.
In July 1990,
SSA introduced the SSA-6230 accounting form for parents and,
later,
stepparents and grandparents with custody of minor children
who receive title
II benefits. These payees may report their use of benefits
for up to four children on the same form. Since parents,
stepparents, and
grandparents represent the largest type of payee category,
most
title II payees now receive the SSA-6230. The SSA-6230 differs from the SSA-623 primarily in:
(1) the payees` ability to account for up to four children on
the same form; and (2) the wording of the questions on custody and
use of benefits. Also, questions about funds on the SSA-6230 are
more general. Payees report: (1) the expenses for care and support
of the children; and (2) savings.
The Current Accounting Process
Each month, SSA uses its computerized beneficiary databases
(the Master Beneficiary Record and the Supplemental Security Record)
to identify payees who are to receive annual accounting forms. The
SSA usually schedules payees to receive forms on the anniversary
of the month they were selected to be the payee, although SSA and/or
payees may designate an alternate report period. As a result of this
selection process, SSA sends initial accounting forms to approximately
one-twelfth of all payees each month.
The SSA uses a contractor to mail accounting forms
to payees. If payees have not returned accounting forms within 3
months of the first mailing, the contractor mails a second request.
If the payees fail to respond to the second request, SSA staff attempt
to contact payees directly to obtain a completed accounting.
When payees return the mailed accounting requests,
SSA`s Wilkes-Barre Data Operations Center in Pennsylvania completes
the initial screening, data verification, and review of the returned
forms. The staff use a computer program to review the accounting
forms and decide whether the responses are acceptable or need further
review and/or explanation. (Responses requiring further review and/or
explanation are referred to as "exceptions.") If all responses
are acceptable and there are no relevant remarks, no further action
is necessary.
SSA Initiatives and Changes in Annual Accounting
The SSA has initiated several activities to improve
the annual accounting process. First, SSA: (1) introduced the SSA-6230
accounting form tailored for parents, stepparents, and grandparents
with custody of minor children who receive title II benefits; and
(2) has made periodic revisions to the SSA-623 to improve the clarity
of the form. Second, SSA asked OIG to conduct a series of inspections
that would review and recommend improvements to the annual accounting
process. This report is one in the series of reports that assess
the risk of misuse of benefits associated with various categories
of payees. Other reports will present data concerning demographics
of payees, demographics of beneficiaries, misuse or questionable
use of benefits by payees, poor performance by payees, the effectiveness
and efficiency of the accounting review process, and nonresponding
payees. A roll-up report will provide overall recommendations for
improving the accounting process. And third, independent of the OIG`s
work, SSA appointed an external Representative Payee Advisory Committee
in June 1995 to study all aspects of the accounting process from
payee selection through monitoring payee performance. The Committee
reported its findings and recommendations to the Commissioner of
SSA in November 1996.
METHODOLOGY
We combined data collection from SSA`s computerized
beneficiary data bases and in-person interviews to determine payees` performance.
In September and October 1994, SSA prepared computerized files of
title II and title XVI beneficiaries with payees scheduled to receive
initial accounting forms in October 1994. From these files, we extracted
a sample of 3,010 payee cases for our study. These cases were roughly
divided for:
1. relatives and nonrelatives; (2)
2.            custodial and noncustodial
payees; and (3)
3.              title II and title XVI programs.
For our sample cases, we mailed out accounting forms
and, upon their return, determined the types and frequencies of exceptions.
In addition, SSA staff attempted to interview every payee as well
as beneficiaries, custodians, and collateral contacts as appropriate
and possible. Interviewers attempted to conduct all interviews fact-to-face
and in the respondents` homes. Interviewers used structured guides
during these interviews.
We used the collected information to describe:
1. payees` experiences with the current accounting
process; and (2)
2. payees` difficulties in completing the annual
accounting form.
We weighted our results to the universe of beneficiaries
with
payees scheduled to receive initial accounting forms in October
1994. For analysis purposes, we weighted each case to the October
1994
universe. Appendix B contains a detailed description of our methodology. This inspection was conducted in accordance with the Quality
Standards for Inspections issued by the President`s
Council on Integrity and Efficiency.
Back to top
FINDINGS
APPROXIMATELY
86 PERCENT OF PAYEES RESPONDED TO MAILED ACCOUNTING REQUESTS
We found that the majority of payees returned accounting forms
when they received the requests in the mail. Approximately 75.5
percent responded to the first request--returning the forms an
average of 25.1 days from the date we mailed the first request--and
10.3 percent responded to the second request--returning the forms
an average of 135.1 days from the date we mailed the first request
and 30.4 days from the date we mailed the second request (see
graphic on the right). Refer to Appendix C for more information
concerning response rates.
More Than 14 Percent of Payees Required Direct Contact
Related to the Accounting Requests
The SSA had to contact some payees directly to obtain completed
accounting forms. Approximately 11.7 percent of all payees (or
more than 85 percent of those who did not respond to the first
or second requests) completed an accounting after SSA`s contacts.
An additional 0.5 percent produced photocopies of completed
forms during the interviews. We did not receive the originals because
the forms may have gotten "mixed in" with other documents
that the payees returned to SSA or they may have gotten lost in
the mail. Approximately 0.3 percent had to be contacted directly
because the United States Postal Service returned the accounting
requests as undeliverable, and we were unable to obtain better
addresses. Only 1.7 percent of payees provided no accounting
because they refused, could not be located, or died, or for other
unspecified reasons.
MORE
THAN 35 PERCENT OF RESPONDERS COMPLETED ACCOUNTING FORMS IN
A MANNER THAT PRODUCED EXCEPTIONS
Approximately 122,000 payees (or 35.7 percent of responders)
provided responses that produced exceptions (i.e., responses that
required SSA to conduct further review of the accounting forms
and/or contact payees directly) (see Appendix C for information
on exception rates by type of payee). The most common exception
came from payees writing comments on the accounting forms. Almost
61,000 payees (49.7 percent of exception cases and 17.7 percent
of responders) wrote comments on the back of the accounting forms.
Some remarks provided detail about responses given on the form,
but many payees included superfluous remarks (e.g., general statements
about the beneficiary that had no bearing on his or her entitlement
to benefits, requests from payees for increased benefits, etc.).
Although SSA usually can address these latter remarks quickly and
easily, SSA staff still must review what is written. Other frequent
exceptions included:
90 PERCENT THRESHOLD
Ø 31,294 Payees
Ø 25.6 Percent Exception Cases
Ø Percent of Responders
Payees failing to account for at least 90 percent of the
total accountable amount (the total of questions 3B, 3C, and/or
3D). Individual payees were more likely than agencies and institutions
to have failed to meet the 90 percent threshold.
RELATIONSHIP INFORMATION
Ø 29,686 Payees
Ø 24.3 Percent of Exception Cases
Ø 8.7 Percent of Responders
(Form SSA-623 Only)
Payees providing relationship information on form SSA-623
that does not correspond with SSA`s computerized data bases
or failing to answer the relationship question altogether (question
7). For payees completing the SSA-6230, SSA checks whether responses
fall into parents, stepparents, or grandparents. Since a significant
portion of payees who complete the SSA-6230 have inconclusive payee
coding (i.e., they have a type of payee code of "W"),
SSA cannot verify the exact payee relationship. For this reason,
we also did not verify relationship information for these payees.
In general, we did find cases in which payees who completed form
SSA-6230 failed to answer the question, provided inconclusive information,
or answered the question incorrectly.\
CUSTODY CHANGES
Ø 19,530 Payees
Ø 16.0 Percent of Exception Cases
Ø 5.7 Percent of Responders
Payees stating that the beneficiary did not live with the
same person or in the same institution during the entire report
period--form SSA-623--or stating that the children named on the
accounting form did not live with them during the entire report
period--form SSA-6230-- (question 2).
MANAGEMENT OF BENEFITS
Ø 19,151 Payees
Ø 15.6 Percent of Exception Cases
Ø 5.6 Percent of Responders
payees stating that they did not decide how all benefits were
spent or saved (question 3A). The payees may have turned over the
benefits to the beneficiary directly or may have given the benefits
to another individual or organization.
Payees Frequently Completed the Accounting Form in a Manner
That Generated More Than a Single Exception
Our review of the accounting forms frequently identified more than
one exception per accounting form. We found that more than 46,000
accounting forms (37.8 percent of exception cases) had 2 or more
exceptions on the accounting form, and 229 accounting forms (0.2
percent of exception cases) had 6 exceptions.
PAYEES
EXPRESSED DIFFICULTIES IN COMPLETING THE ACCOUNTING FORMS
Although more than 80 percent of responders claimed to have read
the instructions included with the accounting request, payees frequently
mentioned difficulties completing the forms or understanding particular
questions. Payees identified the questions regarding the use of benefits--3B,
3C, and/or 3D--most often as troublesome, but many payees mentioned
that they had trouble with all questions. Several payees with difficulties
mentioned their poor reading skills or limited English as a cause
for their difficulties. Refer to Appendix C for a description of
payee training and preparation.
Several factors appear to play a role in payees` difficulties.
Payees expressing difficulties with completing the accounting forms
were less likely to have received verbal instructions at the time
they were appointed payee or recall receiving the booklet entitled A
Guide for Representative Payees than those who expressed no difficulties.
These payees were more likely to have limited education (completed
8 years or less of formal education) than payees who expressed no
difficulties.
Incomplete and Incorrect Responses Generated Unnecessary Exception
Cases
The SSA`s procedures require that staff contact payees directly
to resolve many types of exceptions. Based on these contacts, we
found that--had the payees answered the questions completely and
correctly--more than 34,000 accounting forms (28.2 percent of all
exception cases) would not have had exceptions. The SSA would have
cleared these accounting forms through its automated review process.
Incorrect Responses Were Frequently the Result of Payee Confusion
Payees often claimed confusion as the cause of their incorrect responses.
For example, 52.9 percent of payees who answered question 2 (custody
of the beneficiary) "No"--which indicated a change in beneficiary
custody--changed their answer to "Yes"--which indicated
no change in beneficiary custody--when SSA contacted them. When asked
why they answered the question incorrectly, payees frequently mentioned
that they misunderstood the question.
Payees` accounting of benefits spent and saved provides further
evidence of payee confusion. Although the accounting forms state
the amount of benefits for which payees should account, 18.8 percent
accounted for an amount in excess of the total accountable amount.
Approximately 1.6 percent accounted for more than 4 times the
total accountable amount, and 0.6 percent accounted for more than
10 times the amount. (Although these responses would not produce
an exception--they exceeded the 90 percent threshold--they clearly
demonstrate payees` confusion over what they are being asked
to do.)
Many Payees Did Not Maintain Information Necessary to Complete
Accounting Forms
Based on payee interviews, we found that many payees could not effectively
break down how they spent and saved benefits on behalf of beneficiaries.
Parent payees frequently deposited benefits into a general household
account and used the benefits to cover the family`s needs (e.g.,
rent, groceries, utilities). Other payees did not keep sufficient
records to differentiate how they used the benefits. They responded
only in general terms about benefit expenditure during the interviews.
Therefore, we can assume that payees` responses regarding benefit
expenditure on the accounting forms are a "guess" rather
than actual figures. (Overall, payees who did not meet the 90 percent
threshold were less likely to have maintained financial records during
the report period than those that met the threshold.)
EXCEPTION RATES
VARY BY ACCOUNTING FORM
We found great disparity between the exception rates for payees
completing the SSA-623 versus those completing the SSA-6230.
Approximately 50.8 percent of payees completing the SSA-623 had exceptions,
while 19.4 percent completing the SSA-6230 had exceptions. The SSA
developed the latter form to be a simpler and more direct form. The
result is that parents, stepparents, and grandparents with custody
of children receiving title II benefits are the least likely to have
exceptions.
Payees` Responses Indicate the Desire for Additional Accounting
Form Variations
The two current accounting forms do not address the variations that
exist in the payee population. As a result, SSA may be requiring
payees to respond to inappropriate questions or payees may have difficulty
responding altogether. For example, agencies and institutions cannot
be convicted of felonies (question 1). Several agency and institutional
payees strongly questioned why this question was included. In addition,
due to their difficulty reading English, several payees would have
preferred to receive the accounting form in a alternate language.
Back to top
CONCLUSION
Although the majority of payees respond to mailed accounting requests,
SSA still must contact a large number of payees directly. Some contacts
are to obtain missing or incomplete responses, while others are to
clarify payees` responses. Many of the latter contacts are necessitated
by payees` confusion over completing the accounting forms. The
SSA`s efforts to make the SSA-6230 a simpler and more direct
form have proven successful, with payees completing the SSA-6230
generating fewer exceptions than payees completing the SSA-623.
APPENDIX A
COPIES OF ACCOUNTING FORMS
The following pages contain copies (front and back) of the SSA-623
and SSA-6230.
(The Accounting Forms SSA-623 and SSA-6230 are unavailable at this
time)
APPENDIX B
DETAILED METHODOLOGY
We combined information from The Social Security Administration`s
(SSA) pre-existing computerized data bases with in-person, in-the-home
interviews to provide data on the relative risk of misuse and poor
performance for all categories and types of payees and beneficiaries.
Sample Selection
1. We requested data from SSA on all beneficiaries with payees
from the Master Beneficiary Record (MBR) and the Supplement Security
Record (SSR). Data included, but was not limited to, beneficiary`s
name; payee`s name, address, and telephone number; payee category
or type; and payment data. We analyzed the universe of payees to
identify characteristics such as payee category, beneficiary type,
and district office code.
2. After preliminary analysis of the universe, we selected a random
sample of SSA district offices. We initially selected 150 offices
from the MBR, but 1 office code was invalid and 5 offices were
outside the continental United States. Therefore, we used 144 offices
for our study.
3. From the computerized files SSA used to produce the October
1994 annual accounting forms, we selected all beneficiaries records
containing the sampled district office codes. This resulted in
29,155 title II cases and 13,520 title XVI cases.
4. For each of the programs (title II and title XVI), we grouped
the beneficiaries records into five strata according to type
of payee coding. The strata are: (1) parents; (2) nonparent
relatives; (3) institutions; (4) financial institutions, public
officials, and social agencies; and (5) payees coded "other." We
then grouped the records within each stratum by custody code (payee
with or without custody of the beneficiary). The title II records
had two additional strata, one for the "W" payee code
and another for missing or miscellaneous codes. Therefore, we had
12 title II strata and 10 title XVI strata.
5. We randomly selected up to 145 cases from each of our 22 strata.
If there were less than 145 cases in the strata, we selected the
universe of cases. Our final sample included 3,010 cases--1,584
title II cases and 1,426 title XVI cases. The chart on the following
page shows the sample distribution by strata.
TABLE 1: LIST OF 22 SAMPLE STRATA
STRATUM
PROGRAM
PAYEE
IN PAYEES
CUSTODY
SAMPLE
CASES
1
SSI
Parent
Yes
145
2
SSI
Parent
No
145
3
SSI
Other relative
Yes
145
4
SSI
Other relative
No
145
5
SSI
Institution
Yes
145
6
SSI
Institution
No
121
7
SSI
Agency/official
Yes
145
8
SSI
Agency/official
No
145
9
SSI
Other
Yes
145
10
SSI
Other
No
145
11
OASDI
Parent
Yes
144
12
OASDI
Parent
No
145
13
OASDI
Other relative
Yes
145
14
OASDI
Other relative
No
145
15
OASDI
Institution
Yes
145
16
OASDI
Institution
No
34
17
OASDI
Agency/official
Yes
145
18
OASDI
Agency/official
No
145
19
OASDI
Other
Yes
145
20
OASDI
Other
No
145
21
OASDI
Unknown*
(Code="W")
All custody
types
145
22
OASDI
Unknown
(Other codes)
All custody
types
101
Total
3,010
*The SSA assumes that these payees are parents with custody.
Data Collection
1. We mailed the SSA-623 or SSA-6230 accounting forms to our sampled
payees. For all returned forms, we entered the information into
corresponding data bases and evaluated the data using SSA`s "four-phase" logic
program.
2. We established folders on all sampled payees that SSA field
staff used during the interviews. The folders contained: (1) the
completed SSA-623 or SSA-6230, if received; (2) results of the
four-phase analysis of the accounting form; (3) any exceptions
needing follow-up with the payee; (4) the names, addresses, and
telephone numbers of the payee and beneficiary; and (5) hard copy
data produced at the time of selection from the MBR, SSR, and Master
Representative Payee File.
3. We developed structured discussion guides for payees, beneficiaries,
and custodians based on the SSA-624-F5 (Representative Payee Evaluation
Report). We also developed structured guides for collateral contacts
and a case summary. Collateral contacts would objectively verify
self-reported information given by payees, beneficiaries, and custodians.
Information included, but was not limited to:
a. biographical information about the payee and beneficiaries;
b. the relationship between the payee and the beneficiary;
c. the relationship between the beneficiary and the custodian;
d. the beneficiary`s level of satisfaction with the payee`s
performance;
e. from the payee and beneficiary, details about how benefits
were spent and/or saved on behalf of the beneficiary;
f. the extent of record keeping performed by the payee; and
g. whether the payee is responsible for accounting or reporting
to any other government or private organizations about the benefits
expended.
The case summary allowed interviewers another venue to analyze
and highlight information not captured directly in the discussion
guides. Interviewers often provided their overall professional
impression of each case. In addition, interviewers drew from the
interviews and collected information to determine if benefit misuse
was indicated.
4. We trained SSA staff in nine sessions at five locations around
the country. The training consisted of an introduction to the study,
review of the discussion guides, and role-playing to identify potential
questions about administering the guides. We also trained more
staff by telephone using a condensed version of the onsite training.
5. The SSA staff--under our direction--conducted in-person or
telephone interviews with payees, beneficiaries, custodians, and
collateral contacts where applicable.
Data Analysis
1. We developed a computerized data entry system allowing us to
record information from the accounting forms and each of the discussion
guides and case summary sheets. If interviewers were not able to
obtain completed forms or interviews, we indicated why.
2. Once interviewers returned virtually all cases (3,005 of 3,010
sampled cases as of April 1996), we validated the data entered
into the data bases. We reviewed the data bases to identify and
correct mis-keyed data.
3. Using a computerized statistical software package, we analyzed
the resulting data to identify significant findings. We determined
that the type of payee and custody data may be incorrect for some
cases (see Monitoring Representative Payee Performance: Demographic
Characteristics of Payees, A-09-96-64206). We continued to
analyze data based on the original strata because it provides the
most accurate information about the payees and beneficiaries whose
records currently contain a given type of payee and custody code
combination.
4. We developed weights that we applied to each sampled case.
This allowed us to make projections to the universe of beneficiaries
with payees scheduled to receive an initial accounting form in
October 1994.
Back to top
APPENDIX
C
TYPES AND FREQUENCIES OF EXCEPTIONS
Table 1: Accounting Response Rates (Payee Universe)
Table 2: Exception Rates and Key Exceptions By Type of Payee and
Custody Arrangement
Table 3: Payee Training and Preparation By Type of Payee and Custody
Arrangement
TABLE
1: ACCOUNTING RESPONSE RATES (PAYEE UNIVERSE)
CHARACTERISTICS
STATISTICS
Benefit Program
Relationship
In Payees
Custody
Response Type (Percent)
A
B
C
D
E
F
G
H
SSI
Parent
Yes
80.0
11.7
0.0
0.0
7.6
0.7
0.0
0.0
No
73.1
6.9
0.7
0.7
14.5
1.4
2.8
0.0
Other Relative
Yes
75.2
13.8
0.0
0.0
9.0
0.7
0.7
0.7
No
71.0
13.1
0.0
0.7
10.3
2.1
1.4
1.4
Institution
Yes
74.5
12.4
2.8
0.7
9.0
0.0
0.0
0.7
No
66.9
9.9
6.6
1.6
12.4
1.6
0.0
0.8
Agency/Official
Yes
62.8
8.3
5.5
0.0
22.8
0.0
0.7
0.0
No
57.9
12.4
6.2
1.4
20.7
0.7
0.0
0.7
Other
Yes
70.3
9.7
0.7
0.0
13.1
2.1
3.4
0.7
No
64.8
9.7
0.7
2.8
16.6
2.8
2.1
0.7
OASDI
Parent
Yes
75.7
8.3
0.0
0.0
13.2
0.7
2.1
0.0
No
83.4
6.2
1.4
0.7
5.5
2.1
0.7
0.0
Other Relative
Yes
73.1
9.0
0.0
0.0
17.2
0.0
0.7
0.0
No
82.1
8.3
0.0
0.0
8.3
0.0
1.4
0.0
Institution
Yes
70.3
5.5
5.5
2.1
16.6
0.0
0.0
0.0
No
67.6
5.9
5.9
0.0
20.6
0.0
0.0
0.0
Agency/Official
Yes
63.4
5.5
4.1
0.7
25.5
0.7
0.0
0.0
No
68.3
9.7
4.8
2.1
14.5
0.0
0.0
0.7
Other
Yes
81.4
4.1
0.7
0.7
13.1
0.0
0.0
0.0
No
77.9
6.9
2.8
0.0
9.0
0.7
2.8
0.0
Coded "W"
All
75.2
13.1
0.0
0.7
10.3
0.7
0.0
0.0
Unknown
All
77.2
6.9
0.0
0.0
8.9
5.0
1.0
1.0
Legend:
A=first request
D=unable to deliver
G=died or no payee exists
B=second request
E=nonresponse (direct contact)
H=other
C=photocopy (first/second)
F=refused/unable to locate
TABLE 2: EXCEPTION RATES AND KEY EXCEPTIONS
BY TYPE OF PAYEE AND CUSTODY ARRANGEMENT
CHARACTERISTICS
STATISTICS
Benefit Program
Relationship
In
Payees
Custody
Overall Exceptions (Percent)
90 Percent Threshold
Relation-
ship
(Question 7)
Custody Change (Question 2)
Control of Benefits (Question 3A)
SSI
Parent
Yes
42.1
14.3
8.3
5.3
2.3
No
57.8
16.4
12.9
28.4
11.2
Other
Yes
66.7
14.0
45.0
7.8
10.1
Relative
No
64.8
14.8
23.8
27.0
13.1
Institution
Yes
62.7
9.5
5.6
7.9
15.1
No
60.2
9.7
1.1
15.0
9.7
Agency/
Yes
46.6
11.6
2.9
13.6
7.8
Official
No
46.1
7.8
5.9
12.8
5.9
Other
Yes
59.5
15.5
32.8
12.1
6.0
No
69.4
21.3
25.9
27.8
24.1
OASDI
Parent
Yes
21.5
5.0
1.6
0.8
4.1
No
63.1
7.7
9.2
20.8
12.3
Other
Yes
42.9
7.6
19.3
3.4
5.0
Relative
No
51.2
11.4
16.0
16.8
9.9
Institution
Yes
67.3
1.8
4.6
7.3
17.3
No
48.0
0.0
12.0
20.0
8.0
Agency/
Yes
50.0
11.0
5.0
14.0
12.0
Official
No
46.9
8.0
9.7
17.7
6.2
Other
Yes
62.1
5.6
33.9
11.3
11.3
No
53.7
6.5
10.6
15.4
12.2
Coded "W"
All
17.2
8.6
0.0
2.3
3.1
Unknown
All
84.7
9.4
76.5
10.6
7.1
TABLE 3: PAYEE TRAINING AND PREPARATION
BY TYPE OF PAYEE AND CUSTODY ARRANGEMENT
CHARACTERISTICS
STATISTICS
Benefit Program
Relationship
In Payees
Custody
Read Instructions
Received Verbal Instructions
Received Payee Booklet
Maintains Financial Records
SSI
Parent
Yes
76.7
64.7
49.6
42.9
No
81.9
58.6
50.0
52.6
Other Relative
Yes
77.5
62.8
41.9
36.4
No
77.0
67.2
44.3
50.8
Institution
Yes
71.4
38.9
66.7
92.9
No
60.2
36.6
71.0
89.2
Agency/Official
Yes
65.0
32.0
72.8
94.2
No
69.6
52.0
77.4
93.1
Other
Yes
73.3
60.3
49.1
56.0
No
70.4
64.8
51.8
56.5
OASDI
Parent
Yes
86.8
49.6
58.7
40.5
No
82.3
53.8
53.1
66.9
Other Relative
Yes
86.6
56.3
56.3
52.1
No
84.7
48.1
57.2
75.6
Institution
Yes
67.3
39.1
65.4
93.6
No
60.0
40.0
68.0
96.0
Agency/Official
Yes
59.0
30.0
70.0
86.0
No
68.1
24.8
75.2
97.4
Other
Yes
83.1
57.3
54.8
65.3
No
73.2
50.4
63.4
87.0
Coded "W"
All
82.8
46.1
43.8
32.8
Unknown
All
77.6
41.2
42.4
52.9
Back to top
APPENDIX
D
LIST OF CONTRIBUTORS
This inspection report was prepared by the Office of Audit in San
Francisco under the direction of Scott Patterson, Director, Division
of Evaluations and Technical Services. Project staff included:
Deborah Harvey, Senior Evaluator
Brian Pattison, Senior Evaluator
Alan Stubbs, Senior Evaluator
Nellie Wong, Auditor
Special thanks to Robert Gibbons, Wm. Mark Krushat, Sc.D., and Linda
Moscoe from the Department of Health and Human Services/Office of
Inspector General for their contributions during the initial development
of this project.
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified